APPENDIX

TABLE OF APPENDICES
Appendix A
Order, Supreme Court of California,
Moriana v. Viking River Cruises, Inc.,
No. S265257 (Dec. 9, 2020) ......................... App-1
Appendix B
Opinion, California Court of Appeal,
Second Appellate District, Moriana v.
Viking River Cruises, Inc., No. B297327
(Sept. 18, 2020) ............................................ App-2
Appendix C
Tentative Decision, Superior Court of
California, County of Los Angeles,
Moriana v. Viking River Cruises, Inc.,
No. BC687325 (Mar. 6, 2019) ...................... App-8

App-1
Appendix A
SUPREME COURT OF CALIFORNIA
________________
No. S265257
________________
ANGIE MORIANA,
v.

Plaintiff-Respondent,

VIKING RIVER CRUISES, INC.,
Defendant-Appellant.
________________
En Banc
Filed: Dec. 9, 2020
________________
ORDER
________________
The petition for review is denied.

App-2
Appendix B
CALIFORNIA COURT OF APPEAL
SECOND APPELLATE DISTRICT
________________
No. B297327
________________
ANGIE MORIANA,
v.

Plaintiff-Respondent,

VIKING RIVER CRUISES, INC.,
Defendant-Appellant.
________________
Filed: Sept. 18, 2020
________________
Before: LAVIN, Acting P.J., DHANIDINA,
and EGERTON, J.
________________
OPINION
________________
Angie Moriana sued her former employer Viking
River Cruises, Inc. (Viking), seeking recovery of civil
penalties under the Labor Code Private Attorneys
General Act of 2004 (PAGA) (Lab. Code, § 2698 et
seq.). Viking moved to compel Moriana’s PAGA claims
to arbitration, arguing that the United States
Supreme Court’s decision in Epic Systems Corp. v.
Lewis (2018) ___ U.S. ___ [138 S.Ct. 1612] overruled
the California Supreme Court’s decision in Iskanian v.
CLS Transportation Los Angeles, LLC (2014) 59

App-3
Cal.4th 348 (Iskanian), which held arbitration
agreements that waive the right to bring PAGA
representative
actions
in
any
forum
are
unenforceable. The trial court denied Viking’s motion
to compel arbitration. We affirm the order denying
that motion.
BACKGROUND
Moriana worked for Viking as a sales
representative and agreed to submit any dispute
arising out of her employment to binding arbitration.
The agreement required Moriana to waive any right to
bring a class, collective, representative, or private
attorney general action. It also included a delegation
provision, giving the arbitrator authority to resolve
any disputes over the formation, existence, validity,
interpretation or scope of the agreement.
Moriana sued Viking on behalf of the state and all
other similarly situated aggrieved employees, alleging
various Labor Code violations in a single cause of
action under PAGA. Viking moved to compel
Moriana’s PAGA claims to arbitration. The trial court
denied the motion.
DISCUSSION
Because the pertinent facts are undisputed and
the denial of Viking’s motion was based upon a
decision of law, our review is de novo. (Betancourt v.
Prudential Overall Supply (2017) 9 Cal.App.5th 439,
347.)
Viking argues that the trial court should have
compelled Moriana’s PAGA claims to arbitration
based on the United States Supreme Court’s decision
in Epic Systems Corp. v. Lewis, supra, 138 S.Ct. 1612,

App-4
which Viking claims overruled our Supreme Court’s
decision in Iskanian, supra, 59 Cal.4th 348. Iskanian,
at pages 384 and 389, held that an arbitration
agreement that included a waiver of an employee’s
right to bring a representative PAGA action in any
forum violated public policy and that federal law did
not preempt this rule. Subsequent California Courts
of Appeal cases applying Iskanian have held that an
employee’s predispute agreement to arbitrate PAGA
claims is unenforceable absent a showing the state
also consented to the agreement. (Julian v. Glenair,
Inc. (2017) 17 Cal.App.5th 853, 869-872; Betancourt v.
Prudential Overall Supply, supra, 9 Cal.App.5th at pp.
445-449; Tanguilig v. Bloomingdale’s, Inc. (2016) 5
Cal.App.5th 665, 677-680.) Each of these cases relied
on Iskanian’s reasoning that a PAGA representative
action is a type of qui tam action and that the state is
always the real party in interest in the suit. (Julian,
at pp. 871-872, Betancourt, at pp. 448-449; Tanguilig,
at pp. 677-680.)
Viking argues that Iskanian is no longer good law
in the wake of Epic Systems Corp. v. Lewis, supra, 138
S.Ct. 1612. Epic was not a PAGA case. Rather, Epic,
at page 1620, held that an agreement that requires an
employee to arbitrate claims individually does not
violate employees’ right to engage in concerted activity
and collective action via federal class action
procedures. The Epic court noted the initial judicial
antagonism toward arbitration “‘manifested itself in a
great variety of devices and formulas declaring
arbitration against public policy.’” (Id. at p. 1623.)
Epic warned lower courts to be “alert to new devices
and formulas that would achieve much [of] the same
result” and declared that “a rule seeking to declare

App-5
individualized arbitration proceedings off limits
is ... just such a device.” (Ibid.)
Here, Viking argues that Epic invalidates the
Iskanian rule against PAGA waivers as a judicially
constructed device that prohibits or disfavors valid
contracts
requiring
individualized
arbitration
proceedings. Since Epic, however, California courts
continue to find private predispute waivers of PAGA
claims unenforceable. (See, e.g., Correia v. NB Baker
Electric, Inc. (2019) 32 Cal.App.5th 602, 622; Collie v.
Icee Company (2020) 52 Cal.App.5th 477, 483; Kec v.
Superior Court of Orange County (2020) 51
Cal.App.5th 972, 977-978; Bautista v. Fantasy
Activewear, Inc. (2020) 52 Cal.App.5th 650, 657-658.)
This is because “Epic addressed a different issue
pertaining to the enforceability of an individualized
arbitration requirement against challenges that such
enforcement violated the [National Labor Relations
Act].” (Correia, at p. 619.) The cause of action in Epic
“differs fundamentally from a PAGA claim” in that the
real party in interest in a PAGA claim is the state.
(Correia, at p. 619.) Thus, Epic’s warning about
impermissible devices to get around otherwise valid
agreements to individually arbitrate claims
notwithstanding, Iskanian remains good law. 1 We
therefore reject Viking’s characterization of PAGA
claims as a transparent device to preclude
“On federal questions, intermediate appellate courts in
California must follow the decisions of the California Supreme
Court, unless the United States Supreme Court has decided the
same question differently.” (Correia v. NB Baker Electric, Inc.,
supra, 32 Cal.App.5th at p. 619; accord., Tanguilig v.
Bloomingdale’s, Inc., supra, 5 Cal.App.5th at p. 673.)
1

App-6
individualized arbitration proceedings and follow
Iskanian, which instead viewed predispute PAGA
waivers precluding PAGA actions in any forum as
attempts to exempt employers from responsibility for
violations of the Labor Code. (See Iskanian, supra, 59
Cal.4th at p. 383.)
Viking also argues that Moriana’s “individual
PAGA claim” should be compelled to arbitration.
However, there are no individual PAGA claims. “All
PAGA claims are ‘representative’ actions in the sense
that they are brought on the state’s behalf. The
employee acts as ‘“the proxy or agent of the state’s
labor law enforcement agencies”‘ and ‘“represents the
same legal right and interest as”‘ those agencies—
’”namely, recovery of civil penalties that otherwise
would have been assessed and collected by the Labor
Workforce Development Agency.”‘“ (ZB, N.A. v.
Superior Court (2019) 8 Cal.5th 175, 185.) While
Iskanian, supra, 59 Cal.4th at page 384, left open the
possibility that an “individual PAGA action” might be
cognizable, courts have since found that a single
representative claim cannot be split into arbitrable
individual claims and nonarbitrable representative
claims. (See, e.g., Correia v. NB Baker Electric, Inc.,
supra, 32 Cal.App.5th at p. 625; Tanguilig v.
Bloomingdale’s, Inc., supra, 5 Cal.App.5th at p. 677.)
“[R]egardless of whether an individual PAGA cause of
action is cognizable, a PAGA plaintiff’s request for
civil penalties on behalf of himself or herself is not
subject to arbitration under a private arbitration
agreement between the plaintiff and his or her
employer.” (Tanguilig, at p. 677; accord, Perez v. UHaul Co. of California (2016) 3 Cal.App.5th 408, 421
[single representative action not divisible into

App-7
individual claims].) Moriana’s complaint contains a
single cause of action under PAGA and the only relief
she seeks are statutory penalties for Labor Code
violations. Thus, she has brought a representative
claim that cannot be compelled to arbitration.
Moriana alleged no personal claim seeking
compensation that might be individually arbitrated.
Lastly, Viking contends that the trial court erred
by not sending the “gateway issues” to the arbitrator,
that is, whether there was an agreement to arbitrate
between the parties and whether the agreement
covers the dispute. However, the threshold question
here is not whether claims are arbitrable under an
agreement among the parties, but rather whether
there exists an agreement among the parties at all.
“Under ‘both federal and state law, the threshold
question presented by a petition to compel arbitration
is whether there is an agreement to arbitrate.’” (Cruise
v. Kroger Co. (2015) 233 Cal.App.4th 390, 396.)
Because Moriana was not acting as an agent of the
state when she agreed to arbitrate any claim arising
from her employment, there is no agreement that
would bind the state to arbitration, even on the
question of arbitrability.
DISPOSITION
The order is affirmed. Angie Moriana is awarded
her costs on appeal.
NOT TO BE PUBLISHED.
DHANIDINA, J.
We concur:
LAVIN, Acting P.J.

EGERTON, J.

App-8
Appendix C
SUPERIOR OF CALIFORNIA
COUNTY OF LOS ANGELES
________________
No. BC687325
________________
ANGIE MORIANA,
v.

Plaintiff,

VIKING RIVER CRUISES, INC.,
Defendant.
________________
Filed: Mar. 6, 2019
________________
TENTATIVE DECISION
________________
BACKGROUND
Plaintiff Angie Mariana (“Mariana”) brings this
representative action under the Private Attorneys
General Act of 2004 (“PAGA”). Plaintiff contends that
Defendant Viking River Cruises, Inc. (“Viking”)
committed wage and labor violations against its Sales
Representatives.
In the First Amended Complaint, Plaintiff alleged
a PAGA cause of action for: (1) failure to pay all wages;
(2) failure to pay overtime wages at the legal overtime
pay rate; (3) failure to provide all meal periods;
(4) failure to authorize and permit all paid rest
periods; (5) violations of Labor Code, § 204;

App-9
(5) violations of Labor Code, § 2751; (7) derivative
failure to timely furnish accurate itemized wage
statements; (8) derivative violations of Labor Code,
§ 203; and (9) independent violations of Labor Code,
§ 203.
Defendant filed a motion to compel Plaintiff’s
Labor Code, section 203 and 558 claims to arbitration.
Plaintiff opposed the motion and requested leave to
file a Second Amended Complaint (“SAC”) that
omitted the Labor Code claims. Defendant’s motion
came to hearing on November 20, 2018, at which time
the court granted Plaintiff’s request and deemed
Defendant’s motion to compel arbitration to be moot.
The court reserved a hearing for January 31, 2019 to
allow Defendant to file a new motion to compel
arbitration based on the SAC.
On November 28, 2018, Plaintiff filed a SAC
alleging a PAGA cause of action for: (1) failure to pay
all wages; (2) failure to pay overtime wages; (3) failure
to provide all meal periods; (4) failure to authorize and
permit all paid rest periods; (5) violations of Labor
Code, § 204; (5) violations of Labor Code, § 2751;
(7) derivative failure to timely furnish accurate
itemized wage statements; (8) derivative violations of
Labor Code, § 201-202 and (9) independent violations
of Labor Code, § 201-202.
Defendant now moves to compel Plaintiff’s PAGA
claims to arbitration. Plaintiff opposes the motion.
REQUEST FOR JUDICIAL NOTICE
The court “may take judicial notice of the fact of a
document’s recordation, the date the document was
recorded and executed, the parties to the transaction
reflected in a recorded document, and the document’s

App-10
legally operative language .... From this, the court may
deduce and rely upon the legal effect of the recorded
document, when that effect is clear from its face.”
(Fontenot v. Wells Fargo Bank, N.A. (2011) 198
Cal.App.4th 256, 265, disapproved on other grounds
by Yvanova v. New Century Mortg. Corp. (2016) 62
Cal.4th 919, 939.)
Defendant requests the court take judicial notice
of the JAMS Employment Arbitration Rules &
Procedures (“JAMS Rules”), effective July 1, 2014. As
these rules are not material to the court’s ruling on the
subject motion, the request is MOOT.
DISCUSSION
I.

Legal Standard

“California law reflects a strong public policy in
favor of arbitration as a relatively quick and
inexpensive method for resolving disputes. To further
that policy, Code of Civil Procedure, section 1281.2
requires a trial court to enforce a written arbitration
agreement unless one of three limited exceptions
applies. Those statutory exceptions arise where (1) a
party waives the right to arbitration; (2) grounds exist
for revoking the arbitration agreement; and
(3) pending litigation with a third party creates the
possibility of conflicting rulings on common factual or
legal issues.” (Code of Civ. Proc., § 1281.2; Acquire II,
Ltd. v. Colton Real Estate Group (2013) 213
Cal.App.4th 959, 967.) Similarly, public policy under
federal law favors arbitration and the fundamental
principle that arbitration is a matter of contract and
that courts must place arbitration agreements on an
equal footing with other contracts and enforce them

App-11
according to their terms. (AT&T Mobility LLC v.
Concepcion (2011) 563 U.S. 333, 339.)
In deciding a motion to compel arbitration, trial
courts must decide first whether an enforceable
arbitration agreement exists between the parties, and
then determine the second gateway issue whether the
claims are covered within the scope of the agreement.
(Omar v. Ralphs Grocery Co. (2004) 118 Cal.App.4th
955, 961.) The opposing party has the burden to
establish any defense to enforcement. (Gatton v. TMobile USA, Inc. (2007) 152 Cal.App.4th 571, 579
[“The petitioner ... bears the burden of proving the
existence of a valid arbitration agreement and the
opposing party, plaintiffs here, bears the burden of
proving any fact necessary to its defense.”].)
II. Existence of an Arbitration Agreement
A motion to compel arbitration or stay
proceedings must state verbatim the provisions
providing for arbitration, or must have a copy of them
attached. (Cal. Rules of Court, rule 3.1330.)
According to Defendant, Viking utilizes non-party
TriNet HR III, Inc. (formerly TriNet HR Corporation,
“TriNet”) as a Professional Employer Organization
(“PEO”), and Plaintiff electronically signed and agreed
to a Dispute Resolution Protocol (“DRP”) contained
within a Terms and Conditions Agreement (“TCA”)
with TriNet that requires Plaintiff to submit “any
disputing arising out of or relating to [her]
employment” to binding arbitration. (Mot. 7.)
The TCA and DRP state in relevant part:

App-12
1. Co-Employment
Employment

vs.

Standard

... If your relationship with TriNet is
beginning because the company you work for
(“your worksite employer,” or “your
company”) is a TriNet customer, this means
that your company has entered into an
agreement with TriNet to share certain
employer responsibilities as co-employers.
This means TriNet will he your employer of
record for administrative purposes and will
process payroll based on the information
provided by your worksite employer, sponsor
and administer benefits, and provide certain
human resources services. As your worksite
employer, your company retains the
responsibilities of directing your day-to-day
work and managing its business affairs. Your
Worksite employer,not [sic] TriNet, has sole
responsibility for controlling, or providing
input about, your wages, hours, and working
conditions. ...
9. Dispute
(“DRP”)
a.

Resolution

Protocol

How The DRP Applies

Subject to the limitations in subsection (b),
this DRP covers any dispute arising out of or
relating to your employment with TriNet
and/or, if you work for one of TriNet’s
customers, arising out of or relating to your
employment with your company, as well as
any dispute with a benefit plan, insurer,
employee, officer, or director of TriNet or of a

App-13
TriNet customer (all of whom, in addition to
TriNet customers, are intended to be
beneficiaries of this DRP) (“covered dispute”).
The Federal Arbitration Act applies to this
DRP.
Also,
any applicable
internal
procedures for resolving disputes (e.g.,
procedures in the Employee handbook for
complaining
about,
and
addressing
complaints about, misconduct), as well as the
option of mediation, will continue to apply
with the goal being to resolve disputes before
they are arbitrated. This DRP will survive
termination of the employment relationship.
With only the exceptions described below,
arbitration will replace going before a
government agency or a court for a judge or
jury trial, and even in the exceptional
situations described below, NO JURY TRIAL
WILL BE PERMITTED, unless applicable
law does not allow enforcement of a predispute jury trial waiver in the particular
circumstances presented.
b. Limitations On How The DRP
Applies
The mandatory arbitration requirement of
this DRP does not apply to claims for workers
compensation, state disability insurance or
unemployment insurance benefits.... The
mandatory arbitration requirement does not
prevent a party from bringing complaints,
claims or charges before the Equal
Employment Opportunity Commission, the
U.S. Department of Labor, the National

App-14
Labor Relations Board, or the Office of
Federal Contract Compliance Program, and
does not prevent a party from bringing claims
in any forum as provided in Public Laws 111203, 111-116 & 112-10. Further, claims may
be brought before any other administrative
agency, provided applicable law does not
preclude the right to bring claims there when
there is a mandatory arbitration agreement.
If you work for one of Tri Net’s customers, and
there is at the time of a covered dispute an
agreement between you and your company
governing the resolution of the covered
dispute, then to the extent inconsistent with
this DRP, that agreement will be controlling
as between you and your company (and its
employees, officers and agents). The
applicability of this DRP to covered disputes
between you and TriNet (and its employees,
officers and agents) will be unaffected by the
existence of an agreement between you and
your
company
regarding
dispute
resolution. ...
d. How Arbitration
Are Conducted

Proceedings

... There will be no right or authority for
any dispute to be brought, heard or
arbitrated as a class, collective,
representative or private attorney
general action, or as a member in any
purported
class,
collective,
representative or private attorney
general proceeding, including, without

App-15
limitation, uncertified class actions
(“Class Action Waiver”); provided,
however, that yon may opt out of the
Class Action Waiver by clicking this box
before you click below to acknowledge
this TCA. Disputes regarding the validity
and enforceability of the Class Action Waiver
may be resolved only by a civil court of
competent jurisdiction, but the portion of the
Class Action Waiver that is enforceable shall
be enforced in arbitration. ....
(Declaration of Grant Folsom (“Folsom Decl.”) Ex. A,
at ¶¶ 1, 9.)
Defendant argues that Plaintiff’s PAGA claims
are arbitrable because Plaintiff waived her right to
bring representative PAGA actions through the DRP.
(Mot. 13-14.)
In Iskanian v. CLS Transportation Los Angeles,
LLC (2014) 59 Cal.4th 348 (Iskanian) the California
Supreme Court held that waivers of representative
PAGA claims are unenforceable, as a PAGA
representative action is a type of qui tam action. (Id.
at pp. 382-383.) Defendant recognizes that it is
precluded from compelling Plaintiff’s PAGA claim to
arbitration under Iskanian but argues that Iskanian
was effectively overruled by the United States
Supreme Court’s holding in Epic Systems Corp. v.
Lewis (2018) 138 S.Ct. 1612 (Epic).
The Court of Appeal recently addressed and
rejected this specific argument in Correia v. NB Baker
Electric, Inc. (Feb. 25, 2019) Case No. D073798,
— Cal.Rptr.3d —, 2019 WL 910979 (Correia). As the
Correia Court explained: “Although the Epic court

App-16
reaffirmed the broad preemptive scope of the Federal
Arbitration Act (FAA), Epic did not address the
specific issues before the Iskanian court involving a
claim for civil penalties brought on behalf of the
government and the enforceability of an agreement
barring a PAGA representative action in any forum.”
(Correia, 2019 WL 910979, at pp. 1, 5-9, italics in
original; see also id. at p. 5 [“Because Epic did not rule
on the precise issue before Iskanian, we remain bound
by Iskanian’s holding. Moreover, Iskanian’s holding
and reasoning are not necessarily incompatible with
Epic.”].) The Correia Court further explained: “The
Iskanian court reached a different conclusion from
Concepcion on the enforceability of the contractual
waiver—not because the Iskanian court interpreted
the FAA differently from Concepcion on the
preemption issue, but based on the unique nature of a
PAGA claim as a qui tam type action, and the ‘PAGA
litigant’s status as “the proxy or agent” of the state’
and his or her ‘substantive role in enforcing our labor
laws on behalf of state law enforcement agencies.’” (Id.
at p. 9.)[1]
Correia is a published opinion that constitutes
binding authority upon this court. Accordingly, the
court DENIES the motion, finding that Plaintiff’s
The Correia Court also rejected the defendant employer’s
argument that the trial court erred in failing to order the
plaintiffs’ PAGA claim to arbitration, noting that several
California Courts of Appeal have held that a PAGA arbitration
requirement in a predispute arbitration agreement is
unenforceable based on Iskanian’s view that the state is the real
party in interest in a PAGA claim. (Correia, supra, 2019 WL
910979 at pp. 10-12.)
1

App-17
PAGA claim cannot be compelled to arbitration under
Iskanian and Correia.
III. Conclusion
For these reasons, the court DENIES the motion,
finding that Plaintiff’s representative PAGA claims
cannot be compelled to arbitration under California
law. Counsel for Plaintiff to give notice.

